 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL



 NEW YORK CLAIMED HOSPITAL-
     BASED CONTINUING DAY
TREATMENT SERVICES THAT WERE
NOT IN COMPLIANCE WITH FEDERAL
   AND STATE REQUIREMENTS
   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                      September 2013
                                                       A-02-11-01038
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In New York State (the State), the Department of
Health (DOH) administers the Medicaid program.

Section 1905(a)(2)(A) of the Act authorizes outpatient hospital services. Federal regulations
(42 CFR § 440.20) define outpatient hospital services as preventive, diagnostic, therapeutic,
rehabilitative, or palliative services that are furnished to outpatients, by or under the direction of
a physician, by an institution that is licensed or formally approved as a hospital.

The State elected to include Medicaid coverage of continuing day treatment (CDT) services, a
form of outpatient hospital services, among its Licensed Outpatient Programs, which are
administered by its Office of Mental Health (OMH). OMH’s CDT program provides active
treatment to Medicaid beneficiaries designed to maintain or enhance current levels of functioning
and skills, to maintain community living, and to develop self-awareness and self-esteem through
the exploration and development of strengths and interests. CDT services include assessment
and treatment planning, discharge planning, medication therapy, case management, psychiatric
rehabilitation, and activity therapy, among others. To be eligible for the CDT program, the
beneficiary must have a designated mental illness diagnosis and a dysfunction due to a mental
illness. CDT services are provided in hospital and nonhospital settings.

Pursuant to State requirements for Medicaid reimbursement of CDT services, a beneficiary’s
treatment plan must (1) be completed in a timely manner; (2) be signed and approved by both the
beneficiary and the physician involved in the treatment; (3) include a diagnosis of a mental
illness, treatment goals, objectives, and related services, a plan for the provision of additional
services, and criteria for discharge planning; and (4) be reviewed every 3 months. Also, a
beneficiary’s progress notes must be recorded at least every 2 weeks by the clinical staff
members who provided CDT services to the beneficiary and identify the particular services
provided and the changes in goals, objectives, and services, as appropriate. In addition, CDT
services must be adequately documented, including type, duration, and need for continuing
services.

For the period April 1, 2009, through August 15, 2011, DOH claimed Medicaid reimbursement
totaling approximately $52 million ($26 million Federal share) for CDT services provided by
hospital-based providers.




                                                   i
OBJECTIVE

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
CDT services provided by hospital-based providers in accordance with Federal and State
requirements.

SUMMARY OF FINDINGS

DOH claimed Federal Medicaid reimbursement for CDT services provided by hospital-based
providers that were not in accordance with Federal and State requirements. Of the 100 claims in
our random sample, 57 claims complied with Federal and State requirements, but 43 claims did
not.

Of the 43 noncompliant claims, 9 contained more than 1 deficiency:

       •   For 15 claims, progress notes were not properly recorded.

       •   For 14 claims, reimbursement standards were not met because the beneficiary did not
           receive either the required number of hours or services billed for the claim.

       •   For 10 claims, the treatment plan was not signed by either the beneficiary or the
           physician.

       •   For four claims, the need for continuing services was not determined.

       •   For three claims, progress notes were incomplete.

       •   For three claims, the treatment plan was incomplete.

       •   For two claims, the treatment plan was not completed timely.

       •   For two claims, CDT services were not documented.

       •   For one claim, the treatment plan was not reviewed timely.

These deficiencies occurred because (1) certain hospital-based CDT providers did not comply
with Federal and State requirements and (2) DOH did not ensure that OMH adequately
monitored the CDT program for compliance with certain Federal and State requirements.

On the basis of our sample results, we estimated that DOH improperly claimed at least
$8,281,766 in Federal Medicaid reimbursement during our April 1, 2009, through August 15,
2011, audit period.




                                                ii
RECOMMENDATIONS

We recommend that DOH:

     •   refund $8,281,766 to the Federal Government,

     •   work with OMH to issue guidance to the hospital-based provider community regarding
         Federal and State requirements for claiming Medicaid reimbursement for CDT services,
         and

     •   work with OMH to improve OMH’s monitoring of the CDT program to ensure
         compliance with Federal and State requirements.

DEPARTMENT OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DOH disagreed with our first recommendation
(financial disallowance) and did not indicate concurrence or nonconcurrence with our remaining
recommendations. Specifically, DOH stated that we based our findings entirely on State
regulations and, if OMH found claims to have violated the State regulations we cited, those
violations “would not have rendered the services non-reimbursable.” DOH also stated that we
often based our disallowances on a “single alleged technical violation” of the regulations. For
example, 17 of the 43 claims found to be nonreimbursable were for documentation errors in
progress notes or a missing beneficiary signature.

After reviewing DOH’s comments, we maintain that our findings and recommendations are
valid. Progress notes and beneficiary signatures are key components in the treatment of
beneficiaries. Progress notes must be recorded at least every 2 weeks by the clinical staff
member who provided CDT services to the beneficiary. Progress notes identify the particular
services provided to the beneficiary and changes in the beneficiary’s goals, objectives, and
services. These requirements were not met for 9 of the 17 claims that DOH referenced. Missing
beneficiary signatures were related to beneficiaries’ individual treatment plans that outline their
course of treatment. By signing a treatment plan, a beneficiary acknowledges participation in,
and approval of, the goals and objectives of the plan. If a beneficiary cannot participate in
treatment planning or approval of the treatment plan, reasons for the beneficiary’s
nonparticipation must be documented in the case record. We did not find such documentation
for 8 of the 17 claims.




                                                iii
                                                      TABLE OF CONTENTS

                                                                                                                               Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            Medicaid Program ..............................................................................................1
            Federal and State Requirements Related to
             Continuing Day Treatment Services ...............................................................1
            New York State’s Continuing Day Treatment Program ....................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
            Objective ............................................................................................................2
            Scope ..................................................................................................................2
            Methodology ......................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................3

          PROGRESS NOTES NOT PROPERLY RECORDED .........................................4

          REIMBURSEMENT STANDARDS NOT MET ....................................................5

          TREATMENT PLAN NOT SIGNED .....................................................................5

          NEED FOR CONTINUING SERVICES NOT DETERMINED ............................5

          PROGRESS NOTES INCOMPLETE .....................................................................6

          TREATMENT PLAN INCOMPLETE....................................................................6

          TREATMENT PLAN NOT COMPLETED TIMELY............................................6

          SERVICES NOT DOCUMENTED ........................................................................7

          TREATMENT PLAN NOT REVIEWED TIMELY...............................................7

          CAUSES OF UNALLOWABLE CLAIMS ............................................................7
            Certain Providers Did Not Comply With Federal and State Requirements.......7
            Inadequate Monitoring by Office of Mental Health ..........................................7

          ESTIMATE OF THE UNALLOWABLE AMOUNT.............................................7

          RECOMMENDATIONS .........................................................................................8




                                                                      iv
    DEPARTMENT OF HEALTH COMMENTS AND
     OFFICE OF INSPECTOR GENERAL RESPONSE ...........................................8

APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: DEPARTMENT OF HEALTH COMMENTS




                                            v
                                          INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In New York State (the State), the Department of Health (DOH) administers the Medicaid
program. DOH uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process and pay Medicaid claims.

Federal and State Requirements Related to Continuing Day Treatment Services

Section 1905(a)(2)(A) of the Act authorizes outpatient hospital services. Federal regulations
(42 CFR § 440.20) define outpatient hospital services as preventive, diagnostic, therapeutic,
rehabilitative, or palliative services that are furnished to outpatients, by or under the direction of
a physician, by an institution that is licensed or formally approved as a hospital.

Principles and standards for determining allowable costs incurred by State and local governments
under Federal awards are established by 2 CFR part 225 (Office of Management and Budget
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments). Pursuant to
2 CFR § 225, App. A, C.1.c, to be allowable, costs must be authorized or not prohibited by State
or local laws and regulations.

Under the New York Medicaid State plan, DOH elected to include coverage of continuing day
treatment (CDT) services, a form of outpatient hospital services, among the State’s Licensed
Outpatient Programs, which are administered by its Office of Mental Health (OMH). 1

Title 14 §§ 587–588 and Title 18 § 505.25 of the New York Compilation of Codes, Rules,
& Regulations (NYCRR) establish requirements for Medicaid reimbursement for the CDT
program, as well as standards for CDT care and treatment planning. Pursuant to these
requirements, a beneficiary’s treatment plan must (1) be completed in a timely manner; (2) be
signed and approved by both the beneficiary and the physician involved in the treatment;
(3) include a diagnosis of a designated mental illness, treatment goals, objectives, and related
services, a plan for the provision of additional services, and criteria for discharge planning; and

1
 Although CDT services are administered by OMH, providers submit claims for payment through the MMIS. DOH
then seeks Federal reimbursement for these claims through the Form CMS-64, Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program.



                                                    1
(4) be reviewed every 3 months. Also, a beneficiary’s progress notes must be recorded at least
every 2 weeks by the clinical staff members who provided CDT services to the beneficiary and
identify the particular services provided and the changes in goals, objectives, and services, as
appropriate. In addition, CDT services must be adequately documented, including type,
duration, and need for continuing services.

New York State’s Continuing Day Treatment Program

OMH’s CDT program provides Medicaid beneficiaries active treatment designed to maintain or
enhance current levels of functioning and skills, to maintain community living, and to develop
self-awareness and self-esteem through the exploration and development of strengths and
interests. 2 CDT services include assessment and treatment planning, discharge planning,
medication therapy, case management, psychiatric rehabilitation, and activity therapy, among
others. To be eligible for the CDT program, the beneficiary must have a diagnosis of a
designated mental illness and a dysfunction due to a mental illness. 3 CDT services are provided
in both hospital and nonhospital settings.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether DOH claimed Federal Medicaid reimbursement for
CDT services provided by hospital-based providers in accordance with Federal and State
requirements.

Scope

Our review covered 614,496 CDT claim lines, totaling $51,906,363 ($25,951,634 Federal share),
submitted by 58 hospital-based CDT providers for the period April 1, 2009, through
August 15, 2011. (In this report, we refer to these lines as “claims.”) Our audit population did
not include CDT services provided by nonhospital providers, which we previously audited. 4

During our audit, we did not review the overall internal control structure of DOH, OMH, or the
Medicaid program. Rather, we reviewed only the internal controls that pertained directly to our
objective.


2
 A primary function of the CDT program is to provide individually tailored treatment services that address
substantial skill deficits in specific life areas that interrupt an individual’s ability to maintain community living. The
configuration, frequency, intensity, and duration of services correspond to the Medicaid beneficiary’s progress in
achieving desired outcomes.
3
 Designated mental illness diagnoses are Diagnostic and Statistical Manual of Mental Disorders (DSM) diagnoses
other than alcohol or drug disorders, developmental disabilities, organic brain syndromes, or social conditions. The
DSM is the standard classification of mental disorders used by mental health professionals in the United States.
4
  Review of Medicaid Claims Submitted by Continuing Day Treatment Providers in New York State (A-02-09-01023,
issued October 12, 2011).


                                                            2
We conducted fieldwork at DOH’s and OMH’s offices in Albany, New York; at the MMIS fiscal
agent in Rensselaer, New York; and at 31 hospital-based CDT providers’ offices throughout the
State.

Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal and State requirements;

       •   held discussions with OMH officials to gain an understanding of the CDT program;

       •   ran computer programming applications at the MMIS fiscal agent 5 that identified a
           sampling frame of 614,496 CDT services claims, totaling $51,906,363 ($25,951,634
           Federal share), submitted by 58 hospital-based CDT providers;

       •   selected a simple random sample of 100 claims from the sampling frame of 614,496
           claims, 6 and, for these 100 claims:

           o reviewed the corresponding hospital-based CDT provider’s documentation supporting
             the claim and

           o interviewed officials at the corresponding hospital-based CDT provider to gain an
             understanding of the provider’s policies for documenting and claiming CDT services;
             and

       •   estimated the unallowable Federal Medicaid reimbursement paid in the population of
           614,496 claims.

Appendix A contains the details of our sample design and methodology.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

DOH claimed Federal Medicaid reimbursement for CDT services provided by hospital-based
providers that were not in accordance with Federal and State requirements. Of the 100 claims in
our random sample, 57 claims complied with Federal and State requirements, but 43 claims did


5
    DOH has contracted with Computer Sciences Corporation to be its MMIS fiscal agent.
6
    The 100 sample items were claims submitted by 31 hospital-based CDT providers.


                                                         3
not. Of the 43 claims, 9 contained more than 1 deficiency. The following table summarizes the
deficiencies noted and the number of claims that contained each type of deficiency.

                                      Summary of Deficiencies in Claims

                                                                                        Number of
                           Type of Deficiency                                       Unallowable Claims 7
    Progress notes not properly recorded                                                    15
    Reimbursement standards not met                                                         14
    Treatment plan not signed                                                                   10
    Need for continuing services not determined                                                  4
    Progress notes incomplete                                                                   3
    Treatment plan incomplete                                                                   3
    Treatment plan not completed timely                                                         2
    Services not documented                                                                     2
    Treatment plan not reviewed timely                                                          1

These deficiencies occurred because (1) certain hospital-based CDT providers did not comply
with Federal and State requirements and (2) DOH did not ensure that OMH adequately
monitored the CDT program for compliance with certain Federal and State requirements.

On the basis of our sample results, we estimated that DOH improperly claimed at least
$8,281,766 in Federal Medicaid reimbursement during our April 1, 2009, through August 15,
2011, audit period.

PROGRESS NOTES NOT PROPERLY RECORDED

Pursuant to 14 NYCRR § 587.16(f)(2), progress notes for each beneficiary must be recorded at
least every 2 weeks by the clinical staff members who provided CDT services to the beneficiary.

For 15 of the 100 claims in our sample, progress notes were not properly recorded by the
hospital-based CDT provider. Specifically, for seven claims, progress notes were not recorded at
least every 2 weeks. 8 For the remaining eight claims, progress notes were not recorded by a
clinical staff member who actually provided a CDT service during the 2-week period that
included our service date.




7
    The total exceeds 43 because 9 claims contained more than 1 error.
8
 One provider associated with three claims recorded progress notes on a monthly basis rather than every 2 weeks.
The remaining four claims did not have progress notes for the 2-week period that included our service date.


                                                           4
REIMBURSEMENT STANDARDS NOT MET

Pursuant to 14 NYCRR § 588.7(d), CDT visits are reimbursed on either a full- or half-day basis.
To be eligible for reimbursement for a full-day visit, the hospital-based CDT provider must
document a minimum visit of 4 hours and three or more medically necessary services. To be
eligible for reimbursement for a half-day visit, the hospital-based CDT provider must document
a minimum visit of 2 hours and one or more medically necessary services.

For 14 of the 100 claims in our sample, the hospital-based CDT provider did not meet the
applicable reimbursement standards for a half- or full-day claim. Specifically, for 10 full-day
claims, the provider’s documentation did not support either a minimum visit of 4 hours or 3
medically necessary services. 9 For four half-day claims, the provider’s documentation did not
support either a minimum visit of 2 hours or one medically necessary service.

TREATMENT PLAN NOT SIGNED

Pursuant to 14 NYCRR §§ 587.16, a beneficiary’s treatment plan, and a periodic review of the
plan, should include the signature of the physician involved in the treatment. A beneficiary’s
participation in treatment planning and approval of the plan should be documented by the
beneficiary’s signature. If a beneficiary cannot participate in treatment planning or approval of
the treatment plan, reasons for the beneficiary’s nonparticipation must be documented in the case
record (14 NYCRR § 587.16(c)).

For 10 of the 100 claims in our sample, the applicable treatment plan was not signed by either
the beneficiary or the physician involved in the treatment. Specifically, for eight claims, the
beneficiary’s participation in treatment planning and approval of the applicable treatment plans
were not documented by the beneficiary’s signature, and the reasons (if any) for nonparticipation
by the beneficiary were not documented in the case record. For two other claims, the applicable
treatment plan, or the applicable periodic review of the treatment plan, did not include the
signature of the physician involved in the treatment.

NEED FOR CONTINUING SERVICES NOT DETERMINED

Pursuant to 14 NYCRR §§ 588.7, a beneficiary’s need for CDT services beyond 156 visits per
year should be determined no later than the 156th visit during such year. The determination
should include an estimate of the number of visits beyond 156 required for the beneficiary within
the remaining year. The required determination should be completed by the treating clinician
and documented in the case record.




9
 For 3 of the 10 full-day claims, the hospital-based CDT provider documented services eligible for reimbursement
at the half-day rate. Therefore, we disallowed the difference between the full- and half-day rates for these claims.



                                                          5
For 4 of the 100 claims in our sample, our service date fell beyond the 156th visit for the
calendar year. For all four claims, determination of the need for CDT services was not
completed by the treating clinician or documented in the case record. 10

PROGRESS NOTES INCOMPLETE

Pursuant to 14 NYCRR § 587.16(f), progress notes for each beneficiary should identify the
particular services provided and the changes in goals, objectives, and services, as appropriate.

For 3 of the 100 claims in our sample, progress notes did not identify the particular services
provided. 11

TREATMENT PLAN INCOMPLETE

Pursuant to 14 NYCRR § 587.16(e), a beneficiary’s treatment plan should include (1) the
beneficiary’s designated mental illness diagnosis; (2) the beneficiary’s treatment goals,
objectives, and related services; (3) a plan for the provision of additional services to support the
beneficiary outside of the program; and (4) criteria for discharge planning.

For 3 of the 100 claims in our sample, the applicable treatment plan lacked 1 or more of the
required elements. All three claims lacked discharge criteria, one claim lacked the beneficiary’s
designated mental illness diagnosis, and one claim lacked both the beneficiary’s treatment goals,
objectives, and related services and a plan for the provision of additional services to support the
beneficiary outside of the program.

TREATMENT PLAN NOT COMPLETED TIMELY

Pursuant to 14 NYCRR § 588.7(k), a beneficiary’s treatment plan should be completed before
the beneficiary’s 12th visit after admission or within 30 days of admission, whichever occurs
first.

For 2 of the 100 claims in our sample, the beneficiary’s treatment plan was not completed within
the required time limit. For both claims, the beneficiary’s treatment plan was completed within
30 days of admission but after the beneficiary’s 12th visit. For one claim, the treatment plan was
completed after the beneficiary’s 23rd visit. For the other claim, the treatment plan was
completed after the beneficiary’s 19th visit.




10
  The four claims in error were submitted by two providers. Officials from both providers stated that they were
aware of the requirement. One provider had a procedure in place to comply with the requirement, but the procedure
was not followed. The other provider had no procedures to comply with the requirement.
11
  For example, one claim’s 2-week note only addressed an individual session focusing on the beneficiary’s plan to
attend security guard training.


                                                        6
SERVICES NOT DOCUMENTED

Pursuant to 42 CFR § 433.32, services claimed for Federal Medicaid reimbursement must be
documented. Pursuant to 18 NYCRR § 504.3(e), by enrolling in the State’s Medicaid program, a
provider agrees to submit claims for payment only for services actually provided to Medicaid
beneficiaries.

For 2 of the 100 claims in our sample, the provider was unable to document that any services
were provided to the beneficiary on our service date.

TREATMENT PLAN NOT REVIEWED TIMELY

Pursuant to 14 NYCRR § 588.7(k), a beneficiary’s treatment plan must be reviewed every
3 months.

For 1 of the 100 claims in our sample, the beneficiary’s treatment plan was not reviewed every
3 months. Specifically, a treatment plan review was due on June 12, 2009; however, the review
was not completed until nearly 1 month later, on July 9, 2009.

CAUSES OF UNALLOWABLE CLAIMS

Certain Providers Did Not Comply With Federal and State Requirements

Of the 31 hospital-based CDT providers included in our sample review, 9 did not properly record
progress notes related to the CDT services billed to Medicaid. These 9 providers submitted 15 of
the 43 claims determined to be in error, including 1 that submitted 4 claims determined to be in
error. In addition, 9 of the 31 hospital-based CDT providers did not comply with Federal and
State requirements concerning the documentation of hours and services to meet the minimum
reimbursement standards. These 9 providers submitted 14 of the 43 claims determined to be in
error. Three of these nine providers submitted more than one claim determined to be in error.
Finally, 6 of the 31 hospital-based CDT providers did not obtain the required signatures on
treatment plans. These 6 providers submitted 10 of the 43 claims in error, including one that
submitted 5 claims determined to be in error.

Inadequate Monitoring by Office of Mental Health

DOH did not ensure that OMH adequately monitored hospital-based CDT providers for
compliance with certain Federal and State requirements. Although OMH conducted periodic
onsite monitoring visits at providers to review case records for compliance with applicable
Federal and State requirements, OMH’s monitoring program did not ensure that providers
complied with Federal and State requirements.

ESTIMATE OF THE UNALLOWABLE AMOUNT

Of the 100 CDT services claims made by hospital-based providers, 43 were not made in
accordance with Federal and State requirements. On the basis of our sample results, we



                                               7
estimated that DOH improperly claimed at least $8,281,766 in Federal Medicaid reimbursement
during our April 1, 2009, through August 15, 2011, audit period. The details of our sample
results and estimates are shown in Appendix B.

RECOMMENDATIONS

We recommend that DOH:

     •   refund $8,281,766 to the Federal Government,

     •   work with OMH to issue guidance to the hospital-based provider community regarding
         Federal and State requirements for claiming Medicaid reimbursement for CDT services,
         and

     •   work with OMH to improve OMH’s monitoring of the CDT program to ensure
         compliance with Federal and State requirements.

DEPARTMENT OF HEALTH COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, DOH disagreed with our first recommendation
(financial disallowance). DOH did not indicate concurrence or nonconcurrence with our
remaining recommendations and instead described actions that OMH had taken. 12

DOH stated that we based our findings entirely on State regulations and, if OMH found claims to
have violated the regulations we cited, those violations “would not have rendered the services
non-reimbursable.” DOH also stated that we often based our disallowances on a “single alleged
technical violation” of the regulations. For example, 17 of the 43 claims found to be
nonreimbursable were for documentation errors in progress notes or a missing beneficiary
signature. 13

After reviewing DOH’s comments, we maintain that our findings and recommendations are
valid. According to 14 NYCRR § 588.1, 14 NYCRR part 588 “establishes standards for
reimbursement under the medical assistance program of outpatient programs for adults with a
diagnosis of mental illness and children with a diagnosis of emotional disturbance certified by
the Office of Mental Health.” Our findings are based on the reimbursement standards applicable
to CDT services in 14 NYCRR part 588. Further, our findings are not technical violations of the
reimbursement standards. Progress notes and beneficiary signatures are key components in the
treatment of beneficiaries. Progress notes must be recorded at least every 2 weeks by the clinical
12
  Specifically, DOH did not indicate whether it agreed to work with OMH to issue guidance to the hospital-based
provider community regarding Federal and State requirements for claiming Medicaid reimbursement for CDT
services. Rather, DOH described steps that OMH took in 2004 and 2009 to provide guidance to the provider
community. Regarding our recommendation that it work with OMH to improve monitoring of the CDT program,
DOH described OMH’s monitoring process and OMH’s process for closing noncompliant providers.
13
  DOH indicated that the State has hired an independent consulting firm to review the cases we disallowed and
expects to “find supporting documentation” that we overlooked.


                                                        8
staff member who provided CDT services to the beneficiary. Progress notes identify the
particular services provided to the beneficiary and the changes in the beneficiary’s goals,
objectives, and services. These requirements were not met for 9 of the 17 claims that DOH
referenced. Missing beneficiary signatures were related to beneficiaries’ individual treatment
plans that outline their course of treatment. By signing a treatment plan, a beneficiary
acknowledges participation in, and approval of, the goals and objectives of the plan. If a
beneficiary cannot participate in treatment planning or approval of the treatment plan, reasons for
the beneficiary’s nonparticipation must be documented in the case record. We did not find such
documentation for 8 of the 17 claims.

DOH’s comments appear in their entirety as Appendix C.




                                                9
APPENDIXES
               APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was hospital-based continuing day treatment (CDT) services claim lines (claims)
submitted by 58 providers in New York State (the State) during our April 1, 2009, through
August 15, 2011, audit period that the State claimed for Federal Medicaid reimbursement.

SAMPLING FRAME

The sampling frame was a computer file containing 614,496 detailed claims for CDT services
submitted by 58 hospital-based providers during our audit period. The total Medicaid
reimbursement for the 614,496 claims was $51,906,363 ($25,951,634 Federal share). The
Medicaid claims were extracted from the claims’ files maintained at the State’s Medicaid
Management Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual Federal Medicaid claim.

SAMPLE DESIGN

We used a simple random sample to evaluate the population of Federal Medicaid claims.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF RANDOM NUMBERS

The source of the random numbers was the Office of Audit Services’ statistical software,
RAT-STATS. We used the random number generator for our sample.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the 614,496 detailed claims. After generating 100 random numbers,
we selected the corresponding frame items. We created a list of 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit at the 90-percent
confidence level to estimate the overpayment associated with the unallowable claims.
          APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                          Sample Details and Results
                                                              Value of
                                                  Number
              Value of                Value of               Unallowable
                                                      of
               Frame                   Sample                  Claims
 Claims                     Sample               Unallowable
              (Federal                (Federal                (Federal
in Frame                     Size                  Claims
               Share)                  Share)                  Share)

614,496     $25,951,634        100     $4,192           43            $1,788

                    Estimated Value of Unallowable Costs
           (Limits Calculated for a 90-Percent Confidence Interval)

                 Point estimate                    $10,988,602

                 Lower limit                           8,281,766

                 Upper limit                        13,695,437
                                                                                                      Page 1 of5


        APPENDIX C: DEPARTMENT OF HEALTH COMMENTS 





 ==================~r ~~~.;,~~~K 1~================= 

  Nirav R. Shah, M.D., M.P.H.
  Commissioner 	
                                         HEALTH 	                                             Sue Kelly
                                                                           Executive Deputy Commissioner




                                                         June 24, 2013



Mr. James P. Edert
Regional Inspector General for Audit Services
Department of Health and Human Services - Region II
Jacob Javitz Federal Building
26 Federal Plaza
New York, New York I 0278

                                                         Ref. No: A-02-11-01038

Dear Mr. Edert:

       Enclosed are the New York State Department ofHealth's. comments on the U.S.
Department of Health and Human Services, Office of Inspector General's Draft Audit Report
A-02-1 1-01038 entitled, "New York Claimed Hospital-Based Coniinuinsz Dav Treatment
Services That Were Not in Compliance with Fede~al and State Requirem-ents:"

         Thank you for the opportunity to comment.

                                                        Sincerely,                /
                                                '/       .
                                           ~--
                                             Naiar~     Michael J.                    ...
                                                        Deputy Commissioner
                                                         for Administration
enclosure

cc: 	    Nirav R. Shah, M .D., M.P.H.
         Ja8on A. Helgerso~
         James C. Cox
         Michael J. Nazarko
         Rpbert W. LoCicero, Esq.
         Diane Christensen
         Dennis Wendell
         Stephen F. LaCasse
         Ronald Farrell
        .OHIPBML


                                        HEALTH.NY.GOV
                                        face book.com/NYSDOH
                                        twitter.com/HealthNYGov
                                                                                                         Page 2 of 5




                   New York State Department of Health 

                              Comments on the 

                 Department of Health and Human Services 

                        Office of Inspector General 

                 Draft Audit Report A-02-11-01038 entitled, 

                New York Claimed Hospital-Based Continuing 

                  Day Treatment Services That Were Not in 

               Compliance with Federal and State Requirements 


The following are the New York State Department of Health's (Department) comments in
response to the Department of Health and Human Services, Office of Inspector General ' s (OIG)
draft audit report A-02 -11-0 I 038 entitled, "New York Claimed Hospital-Based Continuing Day
Treatment Services That Were Not in Compliance With Federal and State Require ments."

Recommendation #1

The Department should refund$ 8,281 ,766 to the Federal Government.

Response #1

The Department and the New York State Office of Mental Heal th (OMH) strongly disagree with
the reco mmendation for the State to refund $8,28 1,766 to the Federal Government on the basis
that OIG's underlying audit methodology is flawed.

This recommendation results from OIG's revi ew of a sample of 100 claims out of 614,496. Of
the 100 claims sampled, OIG found 43 claims to be non-reimbursable, despite the fact that: there
is no finding that these services were not medically necessary; that for all claims the physician
who signed the treatment plan was invo lved in the treatment of that patient; and, that
reimbursement was made only for those "services identified and provided in accordance with an
individual treatment plan." For all but two claims OIG found that there was "evidence that
services were rendered for the claim."

OIG instead often based it's disallowances on a single alleged technical v iolation of the
regulations. For example, in 17 of the 43 claims found to be non -reimbursable, the reason cited
by OIG was for either documentation errors in progress notes or missing beneficiary signatures.
For these 17 claims OIG found all of the other 22 elements out of the 23 reviewed to be in
compliance. As will be explained later, cases such as the 17 j ust cited wi ll be reviewed to identify
any docum entation that may have been missed by OIG.

The auditors ignored the appropriateness of remedies other than disallowance for alleged
regulatory violations.

The type of violations alleged by the OIG, even had they been violative of the regulatory
provisions cited, would not have rendered the services non-reimbursab le under the same
regulations being applied by the OIG. Rather, they would have resulted in alternative enforcemen t
actions by the State, which are specifically provided for in the regulations in question.
                                                                                                         Page 3 of5




 OMH maintains various means of monitoring and enforcing provider compliance with program
 standards. Among these are requiring that providers submit a plan of correction addressing
program deficiencies, increasing the frequency of program inspections, the imposition of fines
and the limitation, suspension or revocation of a provider' s license. Section 587.22 of the
regulation in question, "Enforcement standards and procedures", makes this explicit. This section
specifically provides that where OMH determines that a provider of service is not exercising due
diligence in complying with the State regulatory requirements pertaining to this program, OMH
will give notice of the deficiency to the provider, and may also either request that the provider
prepare a plan of correction, or OMH may provide technical assistance. If the provider fails to
prepare an acceptable plan of correction within a reasonable time, or if it refuses to permit OMH
to provide technical assistance or effectively implement a plan of correction, then it will be
determined to be in violation of the program regulations. Such a determination, as well as a
failure to comply with the terms of the provider's operating certificate or with the provisions of
any appl icabl e statute, rule or regulation, subjects the providt:r to a possible revocation ,
suspension or limitation of the provider's operating certificate, or the imposition of a fine. Thus,
the OIG has issued a recommended disallowance based entirely upon State regulations. In so
doing, however, it has chosen to ignore provisions of the regulation it is purporting to enforce.

Initial Review by the State

Given the totality and qua lity of the documentation, it continues to be the State's position that the
providers are in compliance with the regulations. By disallowing these claims, the OIG is
apply ing a new regulatory standard.       OIG cannot retroactively apply a new standard that
contradicts long standing industry practice. As federal and state law clearly demonstrates,
admini strative language will not be construed as having a retroactive effect unless the language
clearly dictates a result. See Bowen v. Georgetown University Hospital, 109 S.Ct. 468, 471 (I 988)
"An adm inistrative agency's power to promulgate regulations is limited to the authority delegated
by Congress. As a general matter, statutory grants of rulemaking authority will not be understood
to encompass the power to promulgate retroactiv~ rul es unless that power is conveyed by express
terms." See also, Childs v. Childs, 69 A.D.2d 406, 420 (2d Dept's 1979), "If retroactive
application of a decision wo uld produce chaotic or inequitable results, it should be applied
prospectively onl y." This is a situation where a retroactive change in policy creates an extreme
hardship for the continuing day treatment providers and the State.

Independent Consultant' s Review

The State has hired an independent company, Behavioral and Organizational Consulting
Associates, Inc. (BOCA) which is a consulting firm that has conducted evaluations, inspections
and reviews in behavioral health care since 1988, to review the cases that were audited by the
OIG. Its staff has direct clinical background with psychiatrically impaired populations, enabling
BOCA to conduct inspections and reviews related to the quality of mental health treatment
programs as well as regulatory based reviews. We expect BOCA's review of the disallowed cases
will find supporting documentation that was overlooked by OIG, to refute many of these
disallowed claims.




                                                  2
                                                                                                      Page 4 of5




Recommendation #2:

Work with OMH to issue guidance to the hospital-based provider community regarding Federal
and State requirements for claiming Medicaid reimbursement for CDT services.

Response #2:

OMH has distributed guidance to continuing day treatment providers regarding reimbursement
and Medicaid. In January 2004, OMH disseminated a guideline entitled "Medicaid Requirements
for OMH Licensed Outpatient Programs." In January of 2009, OMH disseminated another
document to providers entitled "Continuing Day Treatment Programs, New Reimbursement
Methodology." Additionally, OMH has distributed guidance materials to continuing day
treatment (CDT) providers that focus on the topics of medical necessity, person-centered planning
and related documentation.

Recommendation #3

Work with OMH to improve OMH's monitoring of the CDT program to ensure compliance with
Federal and State requirements.

Response #3

During the time period covered by the audit (4/ 1/09 through 8/15/ 11 ), OMH licensing staff
conducted 94 recertification surveys at 88 licensed CDT programs. 38 of those CDT programs
have now closed. There are currently 53 open licensed CDTs. Each of these visits was conducted
by trained staff from the licensing unit of the OMH Field Office in the region where the program
was located. Survey visits were conducted on site and included observation, interviews with
program staff, administrators and recipients, in addition to a review of program policies and
procedures and a review ofopen and closed records.

Surveys were conducted utilizing the Tiered Certification standards for outpatient programs. The
programs were evaluated on specific, outcome oriented performance indicators within five
compliance categories. Each citation for inadequate performance on an indicator was identified in
a Monitoring Outcome Report (MOR) sent to the program and a satisfactory Plan of Corrective
Action (POCA) was required to be implemented. The length of the program operating certificate
was related to performance on the standards, with additional weight given to key indicators.

The OMH monitoring process, which was followed during the audit period, seeks, wherever
possible, to promote improvement in the quality of services provided and in a program's
compliance with applicable regulations. The implementation of POCAs is monitored and
additional visits are conducted when needed. In addition, technical assistance is often offered to
improve program performance in specifi c areas. Programs with limited duration licenses,
resulting from numerous or significant c itations, are re-surveyed on a more frequent basis. When
it is determined that a provider has repeatedly failed to take necessary corrective actions or
operates in such manner as to potentially adversely affect the health or well being of recipients,
the program can face suspension or revocation of the operating certificate, imposition of a fine or
other sanctions.

                                                3
                                                                                                   Page 5 of5




Com ments:

The recommended disallowance is based upon a misapplication of State regulations. The
majority of the OIG's findings are based on alleged violations of the State's program regulations, .
which would not have rendered the services non-reimbursable. lt is only when a provider of
service does not meet the State's reimbursement rules and regulations that OMH would make a
referral to the Department for the recovery of an overpayment.




                                                4
